APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(March 5, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Southern District of New York
(January 15, 2019) . . . . . . . . . . . App. 10
Appendix C Judgment in the United States
District Court Southern District of
New York
(March 29, 2019) . . . . . . . . . . . . . App. 34
Appendix D Statutes . . . . . . . . . . . . . . . . . . . .
9 U.S.C. § 3 . . . . . . . . . . . . . .
9 U.S.C. § 4 . . . . . . . . . . . . . .
9 U.S.C. § 16 . . . . . . . . . . . . .
28 U.S.C. § 1651 . . . . . . . . . .

App. 36
App. 36
App. 36
App. 38
App. 39

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Case No. 19-1111
[Filed March 5, 2020]
________________________________
CHINA SHIPPING CONTAINER
)
LINES CO. LTD.,
)
)
Petitioner-Appellee,
)
)
v.
)
)
BIG PORT SERVICE DMCC,
)
)
Respondent-Appellant.
)
________________________________ )
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN

App. 2
ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST SERVE
A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 5th day of March, two
thousand twenty.
Present:
DEBRA ANN LIVINGSTON,
RICHARD J. SULLIVAN,
WILLIAN J. NARDINI,
Circuit Judges.
For Petitioner-Appellee:
GINA M. VENEZIA (Michael J. Dehart, on
the brief), Freehill Hogan & Mahar LLP,
New York, NY
For Respondent-Appellant:
PETER SKOUFALOS, Brown Gavalas &
Fromm LLP, New York, NY
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Torres, J.).

App. 3
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that
the judgment of the district court is AFFIRMED.
Big Port Service DMCC (“BPS”) appeals from a
March 29, 2019 judgment enjoining arbitration
between BPS and China Shipping Container Lines Co.
Ltd. (“CSCL”) regarding the supply of marine fuel oil to
a CSCL vessel. The district court recognized a decision
of a Singaporean court regarding the dispute between
the parties (the “Singapore Judgment”), accorded that
decision preclusive effect, and concluded that CSCL
could not be forced to arbitrate because there was no
binding arbitration agreement between CSCL and BPS.
BPS appeals, challenging various aspects of the district
court’s ruling. We assume the parties’ familiarity with
the underlying facts, the procedural history of the case,
and the issues on appeal.
I.

Subject Matter Jurisdiction

The district court concluded that it had subject
matter jurisdiction over this dispute pursuant to our
decision in Garanti Finansal Kiralama A.S. v. Aqua
Marine & Trading Inc., 697 F.3d 59 (2d Cir. 2012). “We
review the question of subject-matter jurisdiction de
novo.” City of New York v. Mickalis Pawn Shop, LLC,
645 F.3d 114, 126 (2d Cir. 2011). BPS contends that the
district court erred in applying Garanti because that
case addressed the proper approach to subject matter
jurisdiction in declaratory judgment actions involving
issues of federal law, not, as here, the issues of contract
law pertinent to arbitration. We disagree.

App. 4
BPS’s jurisdictional argument is, in fact, foreclosed
by Garanti. Indeed, the precise argument BPS now
advances was put forth by AM, the defendant in
Garanti, and we rejected it. See Garanti, 697 F.3d at
62. Here, as in Garanti, the parties must be rearranged
into a hypothetical coercive action that is the “mirror
image” of the suit actually brought by CSCL. Id. at 66.
That “mirror image” suit—BPS suing CSCL to compel
arbitration on a maritime contract—is one over which
the federal courts would have jurisdiction. See id. at 71
(“Although GFK, the plaintiff in this case, disclaims the
existence of a maritime contract, there is no question
but that we would have jurisdiction over AM’s
hypothetical coercive suit to enforce the contract. Thus,
we have jurisdiction over this declaratory judgment
action as well.”). Accordingly, jurisdiction is proper in
the instant declaratory judgment action.
II.

Recognition of the Singapore Judgment

BPS next argues that the district court erred in
recognizing the Singapore Judgment. BPS points to two
purported shortcomings in the foreign proceedings that
supposedly undermine the propriety of according the
foreign judgment comity: the absence of a full and final
judgment and the strong federal policy favoring
arbitration. We need not decide whether the proper
standard of review for the district court’s recognition
decision is abuse of discretion, see Corporación
Mexicana de Mantenimiento Integral, S. de R.L. de C.V.
v. Pemex-Emploración y Producción, 832 F.3d 92, 100
(2d Cir. 2016), or de novo, see Diorinou v. Mezitis, 237
F.3d 133, 139–40 (2d Cir. 2001), because BPS’s
arguments fail even under de novo review.

App. 5
As to BPS’s first argument, the Singapore
Judgment resolved the relevant issue here: the
existence of an arbitration agreement between CSCL
and BPS. BPS conceded before the Singaporean courts
that this question had to be decided in that proceeding,
and BPS actively litigated the issue. Moreover, the
Singapore action was not merely an in rem proceeding
related to the arrest of CSCL’s vessel. Rather, BPS
sought damages arising out of its supposed contract
with CSCL. Accordingly, the Singapore Judgment was
not limited, as BPS now contends, but was a full
decision addressing the existence of the arbitration
agreement at issue.
Turning to BPS’s second argument, there is a
“liberal federal policy favoring arbitration.” AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 339 (2011)
(citation omitted). But that policy does not elevate
arbitration agreements above other contracts; it solely
requires enforcement, “according to their terms, of
private agreements to arbitrate.” Volt Info. Scis., Inc.
v. Bd. of Trs. of Leland Stanford Junior Univ., 489 U.S.
468, 476 (1989); see also New York v. Oneida Indian
Nation of N.Y., 90 F.3d 58, 61 (2d Cir. 1996) (“[F]ederal
policy alone cannot be enough to extend the application
of an arbitration clause far beyond its intended scope.”
(citation omitted)). As BPS concedes, American courts
vindicate the policy favoring arbitration through
judicial proceedings that assess whether an agreement
to arbitrate exists. And that is precisely the process
BPS received in Singapore. The policy favoring
arbitration does not require that BPS get a second
hearing on this issue in the United States. BPS’s
argument to the contrary is without merit.

App. 6
III.

Preclusion and Estoppel

BPS next argues that, even if the district court
properly recognized the Singapore Judgment, it erred
in according it preclusive effect. Specifically, BPS
contends that the Singapore court neither considered
relevant U.S. law nor ruled on arbitrability, and that
the question of arbitrability was not necessary to
support the Singapore Judgment. “[W]e . . . generally
review de novo a district court’s ruling on [issue]
preclusion.” Hoblock v. Albany Cty. Bd. of Elections,
422 F.3d 77, 93 (2d Cir. 2005); see also Diorinou, 237
F.3d at 140. Collateral estoppel or issue preclusion
“applies when (1) the identical issue was raised in a
previous proceeding; (2) the issue was actually litigated
and decided in the previous proceeding; (3) the party
had a full and fair opportunity to litigate the issue; and
(4) the resolution of the issue was necessary to support
a valid and final judgment on the merits.” Republic of
Ecuador v. Chevron Corp., 638 F.3d 384, 400 (2d Cir.
2011). Applying those factors here, we agree with the
district court’s conclusion that the Singapore Judgment
precludes BPS from relitigating the existence of an
arbitration agreement between it and CSCL.
First, a foreign court need not consider or apply
domestic law so long as there is ultimately an identity
of issues. In other words, “the legal standards to be
applied must . . . be identical,” but the foreign court
need not apply a specific body of law. Matusick v. Erie
Cty. Water Auth., 757 F.3d 31, 48–49 (2d Cir. 2014)
(citation omitted); see also Greene v. United States, 79
F.3d 1348, 1353 (2d Cir. 1996). Here, the legal
standards applied were substantively the same and the

App. 7
agency principles applied by the Singapore court are in
accord with New York agency law. Accordingly, there
is an identity of issues.
Next, the question of arbitrability was actually
litigated in Singapore and was necessary to the
Singapore Judgment. As explained above, BPS sought
money damages from CSCL and was not simply
seeking a provisional remedy when it commenced
litigation in Singapore. The Singapore court dismissed
BPS’s suit on the ground that it did not enter into an
agreement with CSCL. Thus, the issue was actually
litigated and decided in Singapore. And because the
foreign action was dismissed based on the absence of a
contract between CSCL and BPS, that decision was
necessary to the judgment.
BPS also suggests that it was not able to fully and
fairly litigate in Singapore because it never obtained
discovery. Not so. All the emails BPS now seeks to
present to the district court were already in its
possession at the time of the Singapore action as they
were either to or from BPS employees. BPS was
“require[d] . . . to bring forward all evidence in support
of [its claim] in the initial proceeding.” Restatement
(Second) of Judgments § 27 illus. 4. BPS filed briefs,
argued its case, and appealed the Singapore decision.
Under these circumstances, BPS had a full and fair
opportunity to litigate.
Finally, BPS represented in the district court, while
seeking a stay of the district court proceedings in favor
of the Singapore litigation, that the decision of the
Singapore courts would be determinative on the issue
of whether CSCL could be required to arbitrate. CSCL

App. 8
argues that, as a result, BPS is estopped from
contending that the result of the Singaporean action is
immaterial to this question. Because we conclude that
the district court properly accorded the Singapore
Judgment preclusive effect, we need not address this
issue.
IV.

Permanent Injunction

BPS also broadly asserts that the district court
erred by permanently enjoining the arbitration
between CSCL and BPS. “When reviewing an order
granting either a preliminary or a permanent
injunction, we review the district court’s legal holdings
de novo and its ultimate decision for abuse of
discretion.” Goldman, Sachs & Co. v. Golden Empire
Sch. Fin. Auth., 764 F.3d 210, 214 (2d Cir. 2014). We
discern no error in the district court’s decision.
“Federal courts generally have remedial power to
stay arbitration.” Id. at 213. Specifically, “where the
court determines . . . that the parties have not entered
into a valid and binding arbitration agreement, the
court has the authority to enjoin the arbitration
proceedings.” In re Am. Express Fin. Advisors Sec.
Litig., 672 F.3d 113, 140 (2d Cir. 2011); see also Societe
Generale de Surveillance, S.A. v. Raytheon European
Mgmt. & Sys. Co., 643 F.2d 863, 868 (1st Cir. 1981)
(Breyer, J.). As discussed above, the district court
properly accorded preclusive effect to the Singapore
Judgment, which held that BPS and CSCL had not
entered into a valid and binding arbitration agreement.
Thus, the district court had the authority to
permanently enjoin the arbitration proceeding.

App. 9
*

*

*

We have considered BPS’s remaining arguments
and find them to be without merit. Accordingly, we
AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

App. 10

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
15 Civ. 2006 (AT)
[Filed January 15, 2019]
________________________________
CHINA SHIPPING CONTAINER )
LINES CO. LTD.,
)
)
Petitioner,
)
)
-against)
)
BIG PORT SERVICE DMCC,
)
)
Respondent.
)
________________________________ )
ORDER
ANALISA TORRES, District Judge:
On March 17, 2015, Petitioner, China Shipping
Container Lines Co. Ltd. (“CSCL”), filed this action
against Respondent, Big Port Service DMCC (“BPS”),
seeking (1) an order staying a New York arbitration
commenced by BPS; (2) a declaratory judgment in favor
of CSCL stating that there is no agreement to arbitrate
between the parties; and (3) costs, expenses, and
disbursements. Pet., ECF No. 1. On March 30, 2015,
BPS sought a stay of the case because the parties had

App. 11
“briefed and argued before the High Court of
Singapore, the question of stay of [the New York]
arbitration,” ECF No. 15, which the Court granted,
ECF No. 18.
On December 22, 2017, the parties informed the
Court that the Singapore courts had issued a final
decision, but that they disagreed as to its preclusive
effect on this action. ECF No. 47. The Court ordered
supplemental briefing on the issue of preclusion, ECF
No. 56, and on March 6, 2018, CSCL moved for an
order recognizing and giving preclusive effect to the
Singapore High Court’s decisions, ECF No. 58. For the
reasons stated below, CSCL’s motion is GRANTED and
its petition is GRANTED in all respects except for its
request for costs, for which the Court orders further
briefing.
BACKGROUND
The following facts are taken from the petition and
the declaration submitted by CSCL and are
uncontested. See Pet.; Toh Decl., ECF No. 61. CSCL is
the owner of the vessel M/V Xin Chang Shu (the
“Vessel”). Pet. ¶ 10. CSCL contracted with OW Bunker
China Limited (“OW China”) for the supply of bunkers
(marine fuel oil) to the Vessel. Id. ¶ 11. OW China then
subcontracted the bunker order to OW Bunker Far
East (Singapore) Pte Ltd. (“OW Singapore”), and OW
Singapore entered into a contract with BPS to arrange
for the physical supply of the bunkers to the Vessel. Id.
¶¶ 13, 18. After the bunkers were delivered to the
Vessel, the parent company of OW China filed for
bankruptcy. Id. ¶ 26. On November 12, 2014, BPS

App. 12
contacted CSCL by email seeking payment for its
invoice issued to OW Singapore.1 Id. ¶¶ 25, 29.
I. The Singapore Action
On November 19, 2014, BPS commenced an action
in Singapore (the “Singapore Action”), Toh Decl. ¶ 3,
and on December 10, 2014, the Vessel was arrested in
Singapore based on an application by BPS, Pet. ¶ 30.
CSCL paid $2.6 million in security to the Singapore
court to secure the Vessel’s release. Id. ¶ 31. As
discussed further below, on December 14, 2014, BPS
served CSCL with a demand for arbitration to be
conducted in New York. Id. ¶ 34. Then, BPS applied to
the Singapore court to stay the Singapore proceedings
pending arbitration. Id. ¶ 32. On December 30, 2014,
CSCL filed an application in the same court to set aside
the warrant of arrest and to dismiss BPS’s suit on the
basis that no contract exists between BPS and CSCL.2
Id. at 33.
In March and July of 2015, an Assistant Registrar
of the Singapore High Court held a hearing on BPS’s
application for a stay and CSCL’s applications to
dismiss the Singapore Action and to set aside the
warrant of arrest of the Vessel (the “First Instance
1

This invoice contains BPS’s General Terms and Conditions,
which provide for arbitration in New York pursuant to the Federal
Maritime Law of the United States. Pet. ¶ 19.

2

Order 18, Rule 19 of Singapore’s Rules of Court allows a pleading
to be “struck out” on the grounds that “(i) it discloses no reasonable
cause of action; (ii) it is scandalous, frivolous or vexatious; (iii) it
may prejudice, embarrass or delay the fair trial of the action; or
(iv) it is otherwise an abuse of the process of the Court.”

App. 13
Hearing”). Toh Decl. ¶ 7. At the hearing, BPS made
submissions on the legal and factual bases for its claim
that OW Singapore entered into the contract on behalf
of CSCL. Id. ¶ 13. The Assistant Registrar dismissed
the Singapore Action and ordered the security returned
to CSCL. Id. ¶ 15. With respect to BPS’s application to
stay, the Assistant Registrar held that BPS could not
demonstrate that CSCL was a party to the contract or
that OW Singapore had entered into it on CSCL’s
behalf, and likewise that it could not show that BPS
and CSCL were parties to the New York arbitration
agreement. Id. ¶¶ 14–16. Specifically, the High Court
held that “[BPS] has not shown, on a good arguable
basis, that the Plaintiff and the Defendants were
parties to the arbitration agreement.” Grounds of
Decision, id. Ex. P4 ¶ 84, ECF No. 61-4. Therefore, the
Assistant Registrar declined to stay the Singapore
Action in favor of New York arbitration and dismissed
the application. Toh Decl. ¶ 16. The Assistant Registrar
did not, however, set aside the warrant of arrest. Id.
¶ 15.
BPS appealed this decision, which was heard by the
Honorable Steven Chong of the Singapore High Court.
Id. ¶ 20. On December 4, 2015, Justice Chong affirmed
both the decision to dismiss the proceedings and the
refusal to stay the matter pending arbitration, and
granted CSCL’s appeal to set aside the warrant of
arrest. Id. ¶¶ 21–23. Justice Chong held that the
evidence clearly established that there was “no basis
for the court to find that [CSCL] was bound by the
Contract.” Appeal Decision, id. Ex. P15 ¶ 17, ECF No.
61-15. BPS then applied to the High Court for leave to
appeal Justice Chong’s decisions, and the High Court

App. 14
dismissed this application on May 18, 2016. Toh Decl.
¶ 27. Next, BPS asked the Singapore Court of Appeal,
the highest court in Singapore, for permission to appeal
the denial of a stay, which it declined to grant on
November 2, 2016.3 Id. ¶ 29. As a result, the Singapore
court decisions refusing to stay the Singapore
proceedings in favor of New York arbitration and
dismissing the Singapore Action are final and
unappealable. Id. ¶¶ 29, 32.
II. The Arbitration Demand and Instant Action
As stated, BPS served CSCL with a demand for
arbitration on December 14, 2014, stating that the
arbitral proceedings were to be conducted in New York
City in accordance with the rules for the Society of
Maritime Arbitrators, Inc. Pet. ¶¶ 34–35. On February
23, 2015, the arbitration panel set a date for the initial
arbitration hearing, id. ¶ 43, and on March 17, 2015,
CSCL commenced this action seeking an order
enjoining the New York arbitration and stating that
there is no agreement to arbitrate between the parties,
see generally Pet.
Along with the filing of its petition, CSCL moved by
order to show cause for a temporary restraining order
and preliminary injunction enjoining the arbitration.
ECF Nos. 3, 5. BPS opposed that motion, arguing, inter
alia, that “[t]he proper court venue for the dispute is
Singapore.” BPS Resp. at 6, ECF No. 10. BPS explained
to the Court:

3

The Court of Appeal granted BPS leave to appeal the decision on
the arrest of the Vessel. Toh Decl. ¶ 29.

App. 15
If the High Court decides that the dispute is not
arbitrable, CSCL will suffer no irreparable harm
because it will not be forced to arbitrate. On the
other hand, if the High Court rules that the
dispute between CSCL and BPS is arbitrable,
then CSCL’s argument that it will be irreparably
harmed by being required to arbitrate (a claim
also already inherent in CSCL’s argument to the
High Court) fails because the High Court will
have found (over CSCL’s argument) that there is
at least a prima facie agreement to arbitrate.
Id. at 7 (emphasis in original). On March 30, 2015, BPS
requested a stay of this action in anticipation of the
impending decision from the Singapore High Court.
ECF No. 15. The Court granted the stay, noting that
“there appears to be substantial overlap between the
issues,” and that the considerations of “judicial
economy, potential prejudice, and convenience”
strongly favor a stay because “‘[if] the High Court
decides that the dispute is not arbitrable, CSCL . . .
will not be forced to arbitrate.’” ECF No. 18 at 1–2
(quoting BPS Resp.). This action remained stayed for
over two years while the issues were litigated in
Singapore.
DISCUSSION
I. Jurisdiction
A. Subject Matter Jurisdiction
The Court will first address BPS’s argument that
the petition should be dismissed for lack of subject
matter jurisdiction. Resp. Opp. at 7–14, ECF No. 65.
Here, the petition alleges two grounds for subject

App. 16
matter jurisdiction: (1) section 3 of the Federal
Arbitration Act, 9 U.S.C. §§ 3, 4, and (2) admiralty and
maritime jurisdiction pursuant to 28 U.S.C. § 1333.
Pet. ¶¶ 7–8. The Court only considers whether it has
admiralty jurisdiction.
The federal district courts have original jurisdiction
over “[a]ny civil case of admiralty or maritime
jurisdiction.” 28 U.S.C. § 1333(1). If a contract is a
“maritime contract,” it is within a federal court’s
admiralty jurisdiction. CTI–Container Leasing Corp. v.
Oceanic Operations Corp., 682 F.2d 377, 379 (2d Cir.
1982). A contract for supply of marine fuel is
“maritime” in nature. Exxon Corp. v. Cent. Gulf Lines,
Inc., 500 U.S. 603, 612 (1991). The contracts at issue
are, therefore, maritime contracts, as they were for the
supply of marine fuel. See also Hovensa LLC v.
Kristensons-Petroleum, Inc., No. 12 Civ. 5706, 2013 WL
1803694, at *3 (S.D.N.Y. Apr. 26, 2013) (“A bunker
supply contract is squarely within the scope of
admiralty jurisdiction, even when one party purchases
the fuel from a third party and the third party delivers
the fuel to the vessel.”). Nevertheless, BPS argues that
the Court lacks maritime or admiralty jurisdiction
because CSCL “fails to allege any claim for breach of a
maritime contract.” Resp. Opp. at 10. CSCL responds
that subject matter jurisdiction exists in a declaratory
action brought by a party claiming that it is not a party
to a contract, pursuant to Garanti Finansal Kiralama
A.S. v. Aqua Marine & Trading Inc., 697 F.3d 59, 66
(2d Cir. 2012). The Court agrees.
In Garanti, the petitioner vessel owner (“GFK”)
commenced an action for a declaratory judgment that

App. 17
it was not bound to arbitrate with the respondent
bunker supplier (“AM”). Id. at 62. AM initiated
arbitration against GFK in New York. Id. GFK argued
that it was not bound to arbitrate because it was not a
party to the contracts containing the arbitration clause.
Id. On appeal, the Second Circuit noted that in
declaratory actions, subject matter jurisdiction is often
determined by looking at the nature of the claim that
the defendant could bring against the plaintiff. See id.
at 68 (noting the “core principle” that a court should
“realign the declaratory judgment claims and parties as
they would appear in a coercive suit” to determine
jurisdiction). The Second Circuit then held that
admiralty jurisdiction existed over the parties’ dispute:
If AM, the declaratory judgment defendant, had
instead brought an action as plaintiff to collect
on the contracts, the district court
unquestionably would have had admiralty
jurisdiction. This declaratory judgment action is
the mirror image of that suit, and the district
court thus had admiralty jurisdiction here too.
Id. at 65–66.
Garanti’s holding applies here. If BPS had brought
an action for payment against CSCL, that would give
rise to admiralty jurisdiction. See Fireman’s Fund Ins.
Co. v. Great Am. Ins. Co. of N.Y., 822 F.3d 620, 632 (2d
Cir. 2016) (admiralty jurisdiction includes “all
contracts which relate to the navigation, business, or
commerce of the sea”). This declaratory judgment
action, therefore, “is the mirror image of that suit,” and
the Court has admiralty jurisdiction. Garanti, 697 F.3d
at 71 (“Although [] the plaintiff [] disclaims the

App. 18
existence of a maritime contract, there is no question
but that we would have jurisdiction over [respondent’s]
hypothetical coercive suit to enforce the contract. Thus
we have jurisdiction over this declaratory judgment
action as well.”).
Accordingly, the Court holds that it has subject
matter jurisdiction over this action.
B. Venue
BPS next argues that venue is improper because
“none of the events giving rise to the petition occurred
in whole or in part within this district.” Resp. Opp. at
13. The Court disagrees.
BPS maintains that CSCL is bound to arbitrate
pursuant to an arbitration clause calling for all
disputes to be “referred to a three person arbitration
panel in the City of New York.” Resp. Opp. at 3;
Skoufalos Decl. Ex. D § 18.1, ECF No. 66-4. Although
CSCL alleges that it is not a party to the contract
incorporating this arbitral provision, there is no
dispute that BPS itself has agreed to the provision.
Indeed, BPS served on CSCL a demand for arbitration
which stated that the arbitral proceedings were to be
“conducted in the City of New York.” Skoufalos Decl.
Ex. I ¶ 3, ECF No. 66-9. For BPS to now argue that the
Southern District of New York is not a proper venue is
“bewildering.” Doctor’s Assocs., Inc. v. Stuart, 85 F.3d
975, 983 (2d Cir. 1996). As the Second Circuit has held,
“[a] party who agrees to arbitrate in a particular
jurisdiction consents not only to personal jurisdiction
but also to venue of the courts within that jurisdiction.”
Id.

App. 19
By agreeing to arbitrate in New York—let alone by
serving a demand for arbitration in New York—BPS
consented to venue in this Court for purposes of any
actions regarding the arbitration clause, including this
action. Accord Victory Transp. Inc. v. Comisaria Gen.
de Abastecimientos y Transportes, 336 F.2d 354, 363
(2d Cir. 1964) (“By agreeing to arbitrate in New York,
. . . the [defendant] must be deemed to have consented
to the jurisdiction of the court that could compel the
arbitration proceeding in New York.”). Accordingly, the
Court holds that venue is proper in this District.4
II. Foreign Judgments
CSCL moves for an order “recognizing and giving
preclusive effect to the following decisions and orders
issued by the Courts of Singapore” (collectively, the
“Singapore Decisions”):
1. Decision of the Singapore High Court, dated
August 11, 2015, Toh Decl. Ex. P4;
2. Order of the Singapore High Court, dated July 9,
2015, id. Ex. P9, ECF No. 61-9;
3. Order of the Singapore High Court, dated July 9,
2015, id. Ex. P10, ECF No. 61-10;
4. Decision of the Singapore High Court, dated
December 4, 2015, id. Ex. P15;
4

Additionally, BPS argues that neither the Federal Arbitration
Act nor the Declaratory Judgment Act by themselves confer
subject matter jurisdiction, and that because “subject matter
jurisdiction was lacking over [CSCL’s] petition,” “resort to state
court remedies was the appropriate course of action” under N.Y.
C.P.L.R. § 7500. Resp. Opp. at 8– 10, 12. As the Court has already
found that there is subject matter jurisdiction over this action,
these arguments fail.

App. 20
5. Order of the Singapore High Court, dated
September 23, 2015, id. Ex. P16, ECF No. 61-16;
6. Order of the Singapore High Court, dated
September 23, 2015, id. Ex. P17, ECF No. 61-17;
and
7. Order of the Singapore High Court, dated
December 4, 2015, id. Ex. P18, ECF No. 61-18.
ECF No. 58 at 1–2.
A. Recognition
In determining the preclusive effect of a foreign
judgment, a court must first formally recognize the
foreign judgment. See Alfadda v. Fenn, 966 F. Supp.
1317, 1327 (S.D.N.Y. 1997). Under federal law, the
recognition of foreign judgments is governed by
principles of comity. See Hilton v. Guyot, 159 U.S. 113,
164 (1895); Norex Petroleum, Ltd. v. Access Indus., 416
F.3d 146, 162 (2d Cir. 2005). “Federal courts generally
extend comity whenever the foreign court had proper
jurisdiction and enforcement does not prejudice the
rights of United States citizens or violate domestic
public policy.” Victrix S.S. Co. v. Salen Dry Cargo A.B.,
825 F.2d 709, 713 (2d Cir. 1987); see also Rapture
Shipping, Ltd. v. Allround Fuel Trading B.V., 350 F.
Supp. 2d 369, 373 (S.D.N.Y. 2004) (noting that
“[w]hether a domestic court should recognize a
judgment of a foreign court is governed by the
principles of comity”).
Recognition of the Singapore Decisions is
appropriate here. First, BPS does not dispute the fact
t h a t t h e S i n gap o r e c o u r t s h a d p r o p e r
jurisdiction—indeed, it was BPS that initiated the

App. 21
action in Singapore and submitted to their courts the
issue of whether an arbitration agreement exists
between CSCL and BPS. See Toh Decl. ¶¶ 3, 8.
Moreover, BPS proceeded to litigate the Singapore
Action over a period of nearly two years without ever
contending that the Singapore courts lacked
jurisdiction. See id. ¶¶ 3–35. In fact, BPS told this
Court that the “proper court venue for the dispute is
Singapore” and that Singapore “undisputedly has
jurisdiction over both parties.” BPS Resp. at 6, 9.
Second, recognition of the Singapore Decisions does not
prejudice the rights of U.S. citizens because BPS is a
foreign corporation organized and existing under the
laws of the United Arab Emirates, Pet. ¶ 6, and is
therefore not a citizen or resident of the United States.
Nor does recognition violate domestic public policy.
Although BPS argues that extending comity would “run
contrary to the strong domestic public policy favoring
arbitration,” Resp. Opp. at 27,5 this federal policy
“applies on its face only to the scope of the issues
subject to arbitration, not to the threshold issue of
whether there exists any agreement to arbitrate
between the parties,” Monisoff v. Am. Eagle Invs., Inc.,
927 F. Supp. 137, 138 (S.D.N.Y. 1996). Here, the
parties disagree over whether there is an arbitration
agreement to begin with, not the scope of the issues
5

The Court also finds this argument disingenuous, as BPS has
stated the opposite to this Court in earlier filings. See BPS Resp.
at 8 (arguing that the Court should not “interfere with the decision
of the High Court of Singapore” because “international comity and
the Supreme Court’s requirement of ‘generous[ ] constru[ction]’ of
intentions of arbitrability are intertwined, forefront principles
here” (alterations in original)).

App. 22
subject to arbitration. Recognition of the Singapore
Decisions under principles of comity is, therefore,
appropriate.
B. Preclusive Effect
Under federal law, a foreign judgment can be
accorded preclusive effect under principles of collateral
estoppel or res judicata. Sberbank of Russia v.
Traisman, No. 14 Civ. 216, 2015 WL 9812581, at *2 (D.
Conn. Dec. 17, 2015). Collateral estoppel applies to
prevent relitigation of an issue when: “(1) the identical
issue was raised in a previous proceeding; (2) the issue
was actually litigated and decided in the previous
proceeding; (3) the party had a full and fair opportunity
to litigate the issue; and (4) the resolution of the issue
was necessary to support a valid and final judgment on
the merits.” Interoceanica Corp. v. Sound Pilots, Inc.,
107 F.3d 86, 91 (2d Cir. 1997) (internal quotation
marks and citation omitted). Here, the elements of
collateral estoppel are satisfied.
First, the issue of whether an arbitration agreement
exists between the parties was raised by BPS in the
Singapore Action, and the Court rejects BPS’s
argument that the Singapore proceedings were limited
to the issue of the Vessel’s arrest. The extensive
records from the Singapore Action submitted in this
case belie this argument. See generally Toh Decl. and
accompanying exhibits. Although BPS initiated the
Singapore Action by applying for an arrest of the
Vessel, the proceedings went far beyond that initial

App. 23
arrest.6 It was BPS that asked the Singapore courts to
decide the issue of whether the parties should be
directed to arbitration,7 Toh Decl. ¶ 5, and BPS agreed
that the question of whether there was an arbitration
agreement between the two parties could be resolved
by consideration of whether there was any contract to
begin with between the parties,8 id. ¶ 9. Further, BPS
told this Court that the Singapore court should and
would decide the question of arbitrability. BPS stated,
in no uncertain terms:
# “The parties already (since December, 2014)
have been (and continue) before the High
Court of Singapore, arguing the same issues,”
BPS Resp. at 1;
6

The extensive proceedings which took place before the Singapore
courts, beginning when BPS commenced the Singapore Action on
November 19, 2014, continuing with a First Instance Hearing in
March and July of 2015, and culminating in multiple appeals in
2015, 2016, and 2017, are outlined in great detail in the Toh
Declaration ¶¶ 3–35.

7

In BPS’s application for a stay to the Singapore courts, it stated
that the grounds for the application were that BPS “has []
concluded an arbitration agreement by which all claims or disputes
are to be referred to arbitration in the City of New York” and that
BPS “has commenced arbitration proceedings.” Toh Decl. Ex. P2
at 4, ECF No. 61-2.

8

The Notes of Evidence recorded by the Assistant Registrar state
that “[p]arties are agreed on basic approach which is that existence
of arbitration agreement depends on existence of contract” and
that “[b]y extension of that, [BPS] would not have made out an
arguable case that there exists an arbitration agreement and
therefore their application for stay should be dismissed.” Toh Decl.
Ex. P5 at 1, ECF No. 61-5.

App. 24
# “The proceedings between BPS and CSCL
continue before the High Court, including, on
the issue of arbitration,” id. at 2;
# “On December 15, 2014, BPS sought a stay of
the Singapore litigation pending arbitration,
and the issue of whether there should be
arbitration . . . has, since December 15, 2015
. . . been before the High Court,” id.;
# “CSCL challenged the arrest in the High
Court on or about December 26, 2014,
arguing, inter alia, that there was no valid
agreement to arbitrate as between CSCL and
BPS. Both CSCL and BPS briefed their
positions to the High Court and the Court
held argument on March 6, 2015. The High
Court on March 24, 2015 heard further
argument and decision, including on the stay
pending arbitration, is pending,” id.;
# “If the High Court decides that the dispute is
not arbitrable, CSCL will suffer no
irreparable harm because it will not be forced
to arbitrate. On the other hand, if the High
Court rules that the dispute between CSCL
and BPS is arbitrable, then CSCL’s
argument that it will be irreparably harmed
by being required to arbitrate (a claim also
already inherent in CSCL’s argument to the
High Court) fails because the High Court will
have found (over CSCL’s argument) that
there is at least a prima facie agreement to
arbitrate,” id. at 7; and

App. 25
# “Fundamentally, this Court should not
countenance CSCL’s attempt to have this
Court interfere with the decision of the High
Court of Singapore, again, before which both
parties have appeared . . . to argue the same
issues as CSCL presses here,” id. at 8–9.
The Court finds, therefore, that the issue of whether an
arbitration agreement exists between the parties was
raised in the Singapore Action.
Second, this issue was actually litigated in
Singapore. As explained, the proceedings in Singapore
were extensive. See generally Toh Decl. and
accompanying exhibits. The issue of whether there is a
valid contract (with an arbitration agreement) was first
presented to the Singapore High Court when the
parties’ three applications were filed in December
2014.9 Toh Decl. ¶¶ 5–6. The Singapore courts engaged
in a detailed analysis of the applications with a
consideration of evidence, substantial written
submissions by the parties, and hearings. Id. ¶¶ 7–13.
BPS made extensive submissions on the legal and
factual bases on which it asserted that a contract had
been entered into, id. ¶ 13, and BPS’s counsel agreed
that “the existence of an arbitration agreement
depends on the existence of [a] contract,” id. Ex. P5 at
2:6–7. The High Court issued a decision affirming the
dismissal of BPS’s claims and refusing to stay the
9

The three applications were (1) BPS’s application to stay the
Singapore Action pending arbitration in New York, (2) CSCL’s
application to dismiss the Singapore Action as frivolous, and
(3) CSCL’s application to set aside the arrest of the vessel and to
award CSCL damages for wrongful arrest. Toh Decl. Exs. P2, P3.

App. 26
matter in favor of arbitration, holding that BPS failed
to show “the existence of an agreement between [BPS]
and [CSCL]” and therefore that BPS also failed to show
that BPS and CSCL “were parties to the arbitration
agreement.”10 Grounds of Decision ¶¶ 79–85. There can
be no dispute, therefore, that this issue was
actually—and, extensively—litigated in Singapore.
Third, as detailed above, BPS had a full and fair
opportunity to litigate these issues in the Singapore
Action and actively did so. BPS was provided with
multiple bites at the apple to convince the Singapore
courts of the existence of an arbitration agreement, yet
failed to do so at every step. Fourth, the resolution of
the issue of whether a contract or arbitration
agreement existed between the two parties was
necessary to the Singapore courts’ decisions on BPS’s
application for a stay and CSCL’s application to

10

BPS appealed this decision to the High Court, which held that
the evidence clearly established that there was “no basis for the
court to find that the defendant was bound by the Contract.”
Appeal Decision ¶ 17. BPS applied to the High Court for leave to
appeal this decision, which was denied, and then BPS asked the
Singapore Court of Appeal for permission to appeal, which was
also denied. See Toh Decl. ¶¶ 27, 29. As a result, the decision by
the Singapore courts to refuse to stay the Singapore proceedings
in favor of New York arbitration is final. Id. ¶ 29.

App. 27
strike.11 The entire action, in fact, centered around
BPS’s allegation that such an agreement existed.12
BPS cannot relitigate the issue of whether there is
an arbitration agreement between BPS and CSCL,
because the Singapore courts have already held that
that there is not. See Grounds of Decision; Toh Decl.
Ex. P14 at 9 (“There was . . . no basis for the court to
find that [CSCL] was bound by the Contract.”). The
Court, therefore, finds that the Singapore Decisions
should be given preclusive effect under principles of
collateral estoppel.13
III.

Judicial Estoppel

CSCL also argues that BPS should be barred under
principles of judicial estoppel “from arguing that the
result of the Singapore Action is immaterial to the

11

Indeed, the Assistant Registrar’s Grounds for Decision state his
finding that BPS has not shown “the existence of an agreement”
between BPS and CSCL, which he notes “fatally undermines
[BPS’s] Stay Application.” Grounds of Decision ¶ 79.
12

BPS’s counsel’s statement that he “agree[s] that the existence of
an arbitration agreement depends on the existence of [a] contract,”
Toh Decl. Ex P5 at 2:6–7, shows BPS’s knowledge that the issue of
whether a valid contract existed between the parties—and by
extension, whether there was a valid arbitration agreement—was
a necessary issue for the Singapore courts to address before they
could resolve BPS’s application for a stay in favor of arbitration.
13

This conclusion does not change because, as BPS argues, the
Singapore courts failed to consider potentially dispositive U.S. case
law. Resp. Opp. at 23. BPS chose to file its lawsuit in Singapore,
and as such, could not have reasonably expected that the
Singapore courts would consider U.S. case law on the issues.

App. 28
issue of whether CSCL can be ordered to arbitration.”
Pet. Reply at 11, ECF No. 69. The Court agrees.
Generally speaking, the doctrine of judicial estoppel
“prevents a party from prevailing in one phase of a case
on an argument and then relying on a contradictory
argument to prevail in another phase.” New Hampshire
v. Maine, 532 U.S. 742, 749 (2001) (citation omitted).
The doctrine serves two dual purposes: to “preserve the
sanctity of the oath” and to “protect judicial integrity
by avoiding the risk of inconsistent results in two
proceedings.” Simon v. Safelite Glass Corp., 128 F.3d
68, 71 (2d Cir. 1997). Although the doctrine typically
applies when a party seeks to rely on a position that is
inconsistent with a position previously taken in a prior
proceeding, the doctrine also prevents reliance on
inconsistent positions in the same action. See
Intellivision v. Microsoft Corp., 484 F. App’x 616, 620
(2d Cir. 2012).
“In evaluating whether to apply the doctrine of
judicial estoppel, courts generally look for the existence
of three factors: (1) that a party’s new position is
‘clearly inconsistent’ with its earlier position, (2) that
the party seeking to assert this new position previously
persuaded a court to accept its earlier position, and
(3) that the party ‘would derive an unfair advantage or
impose an unfair detriment on the opposing party if not
estopped.’” Intellivision, 484 F. App’x at 619 (quoting
New Hampshire, 532 U.S. at 750–51). All three factors
are present here. First, BPS urges the Court to dismiss
the petition and order discovery on “the requirement
that [CSCL] arbitrate its dispute with [BPS].” Resp.
Opp. at 30. This is clearly inconsistent with BPS’s early

App. 29
position that “[i]f the High Court decides that the
dispute is not arbitrable, CSCL . . . will not be forced to
arbitrate.” BPS Resp. at 7. Next, BPS previously
persuaded this Court to accept its earlier
position—indeed, the Court relied on BPS’s
representation, and quoted this very statement by BPS,
when it ordered a stay in this action pending “the
Court’s receipt of the Singapore High Court decision.”
ECF No. 18 at 2. Finally, permitting BPS’s
“opportunistic, last-minute about-face” would unfairly
advantage BPS and impose an unfair detriment on
CSCL.14 Intellivision, 484 F. App’x at 621. CSCL
litigated the issues in Singapore for years, incurring
significant costs, fees, and expenses, in reliance on
BPS’s statements that if Singapore courts found that
the dispute is not arbitrable—which it did—then CSCL
would “not be forced to arbitrate.” BPS Resp. at 7.
Judicial estoppel is, therefore, appropriate, and bars
BPS from arguing that CSCL can be ordered to
arbitrate.
IV.

Petition for Injunctive and Declaratory Relief

The Court now turns to CSCL’s petition for
injunctive and declaratory relief. CSCL seeks (1) an
14

In 2015, when BPS argued to the Court that it should dismiss
CSCL’s petition, it stated that “[i]t is clear that CSCL, fearing the
High Court will order arbitration . . . is now trying to convince this
Court to agree to a collateral attack on the dispute already
thoroughly briefed and argued before the High Court of
Singapore.” BPS Resp. at 3. Now, three years later, BPS employs
this same tactic, arguing that the Court cannot give preclusive
effect to the Singapore Decisions—essentially because the High
Court did not rule in its favor. BPS cannot have it both ways.

App. 30
order permanently enjoining the New York arbitration
commenced by BPS; (2) a declaratory judgment in favor
of CSCL stating that there is no agreement to arbitrate
between the parties; and (3) costs, expenses, and
disbursements. See Pet.
BPS argues that it is entitled to additional discovery
and a trial on the issue of whether a contract was
formed between the parties. Resp. Opp. at 29–30. The
Court disagrees. “A party moving for a jury trial under
[Section 4 of the Federal Arbitration Act] must show
the existence of a genuine issue involving the making
of the arbitration agreement.” Topf v. Warnaco, Inc.,
942 F. Supp. 762, 766 (D. Conn. 1996) (citing
Almacenes Fernandez, S.A. v. Golodetz, 148 F.2d 625,
628 (2d Cir. 1945)). Because the Court has already held
that the Singapore Decisions are preclusive, and these
decisions found that no contract exists and therefore
that no arbitration agreement exists between BPS and
CSCL, BPS has not shown a genuine issue of triable
fact. See Almacenes Fernandez, 148 F.2d at 628. As
explained above, BPS had multiple chances to litigate
the existence of a contract in the Singapore courts, and
made extensive submissions on the legal and factual
bases on which a contract could have been formed
between the parties. Toh Decl. ¶ 13. BPS now states
that it wishes to advance a new theory concerning the
existence of a contract, Resp. Opp. at 19–23, but it
could have raised such theories before the Singapore
courts. BPS is not now entitled to additional discovery
or yet another bite at the apple in the form of a trial in
this District, simply because it wants to pursue a
different theory of contract law than the one it pursued
in Singapore. See id. (arguing that the Singapore

App. 31
Decisions addressed evidence of direct contacts
between the parties but “did not rule on whether those
contacts were sufficient to create a contract”).
Singapore courts already decided the issue, and the
decisions are final and unappealable. Toh Decl. ¶ 34.
Because the Court has already held that the
Singapore Decisions are preclusive, the Court finds
that a declaratory judgment is warranted here. The
Singapore Decisions found that no contract exists
between BPS and CSCL and, therefore, that no
arbitration agreement exists either. See Grounds of
Appeal; Appeal Decision. Moreover, BPS is barred
under judicial estoppel from arguing that CSCL can be
ordered to arbitrate. CSCL, therefore, is entitled to a
declaratory judgment stating that there is no
agreement to arbitrate between CSCL and BPS.
As for CSCL’s request for injunctive relief, the
Court permanently enjoins the arbitration demanded
by BPS because there is no valid arbitration agreement
between these parties. See In re Am. Exp. Fin. Advisors
Sec. Litig., 672 F.3d 113, 140–41 (2d Cir. 2011)
(affirming right of district court to enjoin arbitration
where parties have not entered into valid and binding
arbitration agreement); see also Iota Shipholding Ltd.
v. Starr Indem. & Liab. Co., No. 16 Civ. 4881, 2017 WL
2374359, at *9 (S.D.N.Y. May 31, 2017) (enjoining
underlying arbitration after finding there was no valid
arbitration agreement between the parties).15

15

The Court notes that it does not have to satisfy the traditional
factors courts consider in granting injunctive relief in order to
enjoin the arbitration. Arbitrability is a matter of contract, and a

App. 32
CSCL also seeks “costs, expenses, and
disbursements in prosecuting this action and the action
in Singapore,” Pet. at 8, but has not otherwise moved
for them. The Court, therefore, will order further
briefing on the issue.
CONCLUSION
For the foregoing reasons, CSCL’s motion for an
order recognizing and giving preclusive effect to the
Singapore Decisions is GRANTED. CSCL’s petition for
injunctive relief and declaratory judgment is also
GRANTED. The underlying arbitration is permanently
ENJOINED because there is no valid agreement to
arbitrate between CSCL and BPS.
By March 1, 2019, CSCL’s counsel is directed to
submit their request for costs, expenses, and
disbursements. By March 22, 2019, BPS’s counsel
shall file their opposition papers, if any.
The Clerk of Court is directed to terminate the
motion at ECF No. 58.
SO ORDERED.

party cannot be forced to arbitrate a claim absent a valid and
binding arbitration agreement. In re Am. Exp., 672 F.3d at 141. A
court’s finding that there is no agreement to arbitrate is all that is
required to enable it to enjoin an arbitration. See, e.g.,
TicketNetwork, Inc. v. Darbouze, 133 F. Supp. 3d 442, 454 (D.
Conn. 2015) (enjoining arbitration without analyzing traditional
injunction favors); Iota Shipholding, 2017 WL 2374359, at *9
(same).

App. 33
Dated: January 15, 2019
New York, New York

_____________________________
ANALISA TORRES
United States District Judge

App. 34

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
15 CIVIL 2006 (AT)
[Filed March 29, 2019]
________________________________
CHINA SHIPPING CONTAINER )
LINES CO. LTD.,
)
)
Petitioner,
)
)
-against)
)
BIG PORT SERVICE DMCC,
)
)
Respondent.
)
________________________________ )
JUDGMENT
It is hereby ORDERED, ADJUDGED AND
DECREED: That for the reasons stated in the Court’s
Order dated January 15, 2019, CSCL’s motion for an
order recognizing and giving preclusive effect to the
Singapore Decisions is granted; CSCL’s petition for
injunctive relief and declaratory judgment is also
granted; the underlying arbitration is permanently
enjoined because there is no valid agreement to
arbitrate between CSCL and BPS.

App. 35
DATED: New York, New York
March 29, 2019
RUBY J. KRAJICK
_______________________
Clerk of Court
BY: /s/_____________________
Deputy Clerk

App. 36

APPENDIX D
9 U.S.C. § 3. Stay of proceedings where issue
therein referable to arbitration
If any suit or proceeding be brought in any of the courts
of the United States upon any issue referable to
arbitration under an agreement in writing for such
arbitration, the court in which such suit is pending,
upon being satisfied that the issue involved in such suit
or proceeding is referable to arbitration under such an
agreement, shall on application of one of the parties
stay the trial of the action until such arbitration has
been had in accordance with the terms of the
agreement, providing the applicant for the stay is not
in default in proceeding with such arbitration.
9 U.S.C. § 4. Failure to arbitrate under
agreement; petition to United States court having
jurisdiction for order to compel arbitration;
notice and service thereof; hearing and
determination
A party aggrieved by the alleged failure, neglect, or
refusal of another to arbitrate under a written
agreement for arbitration may petition any United
States district court which, save for such agreement,
would have jurisdiction under title 28, in a civil action
or in admiralty of the subject matter of a suit arising
out of the controversy between the parties, for an order
directing that such arbitration proceed in the manner
provided for in such agreement. Five days’ notice in

App. 37
writing of such application shall be served upon the
party in default. Service thereof shall be made in the
manner provided by the Federal Rules of Civil
Procedure. The court shall hear the parties, and upon
being satisfied that the making of the agreement for
arbitration or the failure to comply therewith is not in
issue, the court shall make an order directing the
parties to proceed to arbitration in accordance with the
terms of the agreement. The hearing and proceedings,
under such agreement, shall be within the district in
which the petition for an order directing such
arbitration is filed. If the making of the arbitration
agreement or the failure, neglect, or refusal to perform
the same be in issue, the court shall proceed summarily
to the trial thereof. If no jury trial be demanded by the
party alleged to be in default, or if the matter in
dispute is within admiralty jurisdiction, the court shall
hear and determine such issue. Where such an issue is
raised, the party alleged to be in default may, except in
cases of admiralty, on or before the return day of the
notice of application, demand a jury trial of such issue,
and upon such demand the court shall make an order
referring the issue or issues to a jury in the manner
provided by the Federal Rules of Civil Procedure, or
may specially call a jury for that purpose. If the jury
find that no agreement in writing for arbitration was
made or that there is no default in proceeding
thereunder, the proceeding shall be dismissed. If the
jury find that an agreement for arbitration was made
in writing and that there is a default in proceeding
thereunder, the court shall make an order summarily
directing the parties to proceed with the arbitration in
accordance with the terms thereof.

App. 38
9 U.S.C. § 16. Appeals
(a) An appeal may be taken from-(1) an order-(A) refusing a stay of any action under section 3
of this title,
(B) denying a petition under section 4 of this
title to order arbitration to proceed,
(C) denying an application under section 206 of
this title to compel arbitration,
(D) confirming or denying confirmation of an
award or partial award, or
(E) modifying, correcting, or vacating an award;
(2) an interlocutory order granting, continuing, or
modifying an injunction against an arbitration that
is subject to this title; or
(3) a final decision with respect to an arbitration
that is subject to this title.
(b) Except as otherwise provided in section 1292(b) of
title 28, an appeal may not be taken from an
interlocutory order-(1) granting a stay of any action under section 3 of
this title;
(2) directing arbitration to proceed under section 4
of this title;
(3) compelling arbitration under section 206 of this
title; or

App. 39
(4) refusing to enjoin an arbitration that is subject
to this title.
28 U.S.C. § 1651. Writs
(a) The Supreme Court and all courts established by
Act of Congress may issue all writs necessary or
appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.
(b) An alternative writ or rule nisi may be issued by a
justice or judge of a court which has jurisdiction.

